            valuation


             eport

         THE NAVY SHIPBOARD POLLUTION CONTROL
                  EQUIPMENT PROGRAM

Report No. D-2001-010               November 14, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector General,
  DoD Home Page at: www.dodig.osd.mil/audit/reports.

  Suggestions for Future Evaluations

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms

APPS                  Act to Prevent Pollution from Ships
CFC                   Chlorofluorocarbon
EPA                   Environmental Protection Agency
INSURV                Navy Board of Inspection and Survey
NAVSEA                U.S. Naval Sea Systems Command
OCM                   Oil Content Monitor
ODS                   Ozone Depleting Substances
OWS                   Oil Water Separator
RTD&E                 Research, Testing, Development, and Evaluation
SPCE                  Shipboard Pollution Control Equipment
                       Office of the Inspector General, DoD
Report No. D2001-010                                                 November 14, 2000
  (Project No. D2000CB-0047)



                    The Navy Shipboard Pollution Control
                            Equipment Program

                                Executive Summary

Introduction. This evaluation was performed in response to a congressional request
contained in report no. 106-244 of the Committee on Appropriations for FY 2000. The
Navy established the Navy Shipboard Pollution Control Equipment (SPCE) Program in
1995 as part of the existing Pollution Prevention Program. The focus of the program is to
procure and install equipment for the disposal of waste on Navy ships. The Navy divides
the program into six major elements: solid waste management, ozone depleting
substance elimination, oil pollution abatement, sewage and gray water management,
submarine solid waste management, and pollution prevention afloat. Multiple treaties
and laws create substantive requirements which govern the major elements of the
program excepting pollution prevention afloat. As of July 2000, equipment installation
under the SPCE program will impact 281 active ships. To date, the Environmental
Protection Systems Division of the Naval Sea Systems Command has completed 660 of
984 programmed installations, with the remaining 324 scheduled through FY 2013. The
program was proceeding on schedule, and the Naval Sea Systems Command has
completed 67 percent of the required work using 74 percent of the programmed funds.
The Navy authorized $635.1 million for the SPCE program through FY 2000, and
programmed an additional $259.2 million through FY 2005, for a total of $894.3 million.

Objectives. The evaluation objective was to review the effectiveness and cost
effectiveness of the Navy’s pollution control equipment program for upgrading
equipment on Navy ships. Specifically, the evaluation assessed the status of progress
toward program goals and objectives, and reviewed program costs versus products and
services delivered. In addition, the evaluation reviewed the management control program
under which SPCE activities were conducted.

The mission and characteristics of Navy ships render Navy pollution control systems
unique. While the Navy conducted effective alternatives analysis for program elements,
we could not perform a complete cost effectiveness analysis. A detailed discussion of
cost effectiveness is contained in Appendix C.

Results. The SPCE program for upgrading equipment on Navy ships was effectively
meeting the stated objectives of compliance with regulatory requirements at the lowest
sustainable life-cycle cost with the least operational impact. The Navy established and
continued to follow installation priorities, and with 660 of 984 programmed equipment
installations complete, the program was meeting scheduled production rates within the
anticipated budget. Program officials acknowledged weaknesses with the operation of
the oil pollution abatement equipment and solid waste management equipment manning
that continued to detract from program effectiveness.

Ship oily water discharge did not always comply with oil content standards. Sample
results collected during FYs 1998 and 1999 determined that over 80 percent of the 145
ships inspected had oil content discharges greater than 15 parts per million. In response
to the ineffective oil pollution abatement systems, commanding officers will not use the
systems while in port or in U.S. waters. Failure to use the systems while in port has
increased the strain on shore systems. The Navy is aware of changes to ship operations
that caused the oil pollution abatement equipment to fail, and were testing an ultra-
filtration membrane system. This process has demonstrated the ability to reliably treat
discharge.

The Navy deployed solid waste management equipment without additional shipboard
manpower required to operate and maintain it, then reacted slowly to the need for
additional manpower. They identified a potential requirement for additional personnel in
1993, but the findings were not approved until February 1999. The Navy approved
additions to the ship manning documents as a result of a Navy-directed assessment of the
manpower requirement of all afloat environmental protection equipment/programs.
While this is no guarantee that the Navy resource managers will fill the billets, the Naval
Sea Systems Command and the fleets continue to work the issue.

The management controls that we reviewed were effective in that no material
management control weakness was identified. See Appendix A for details on the
management control program.




                                           ii
Table of Contents
Executive Summary                                       i
Introduction
     Background                                        1
     Objectives                                        3

Finding
     Navy SPCE Program Effectiveness                    4

Appendixes
     A. Evaluation Process                             11
           Scope                                       11
           Methodology                                 11
           Management Control Program Review           12
           Prior Coverage                              12
     B. SPCE Program Criteria                          13
     C. Evaluation of Cost Effectiveness               17
     D. NAVSEA Installation Data                       21
     E. INSURV Program and Equipment Inspection Data   24
     F. Report Distribution                            27
Background
    This evaluation was performed in response to a congressional request contained in
    report no. 106-244 of the Committee on Appropriations for FY 2000. The
    Inspector General, DoD, was requested to review the effectiveness and cost
    effectiveness of the Navy’s pollution control equipment program for upgrading
    equipment on Navy ships. The mission and characteristics of Navy ships render
    Navy pollution control systems unique, ruling out proper cost effectiveness
    analysis. Appendix C contains a detailed discussion of cost effectiveness.

    Management of The Navy SPCE Program. The Navy established the Navy
    Shipboard Pollution Control Equipment (SPCE) Program in 1995 as part of the
    existing Pollution Prevention Program. The Ship and Air Systems Branch of the
    Environmental Safety and Occupational Health Division of the Chief of Naval
    Operations, Logistics, provides program oversight. The SPCE program is
    managed by the Environmental Protection Systems Division of the Naval Sea
    Systems Command (NAVSEA). NAVSEA is responsible for all the acquisition,
    installation, and life cycle maintenance of all shipboard equipment. This includes
    systems and procedures required to manage shipboard wastes in compliance with
    existing and anticipated environmental restrictions worldwide without
    jeopardizing ship mission, survivability, or habitability.

    The Navy SPCE Program The focus of the program is to procure and install
    equipment for the disposal of waste on Navy ships. The Navy divides the
    program into six major elements.

           •   Solid Waste Management – proper disposal of organic, inorganic, and
               plastic nonhazardous waste using garbage pulpers, metal and glass
               shredders, and plastic processors.
           •   Ozone Depleting Substance (ODS) Elimination – no further use and
               the replacement of existing chlorofluorocarbons (CFC) through air
               conditioning and refrigeration plant conversion.
           •   Oil Pollution Abatement – no discharge of liquid wastes containing
               more than 15 parts per million of oil, accomplished by oil water
               separators and verified by oil content monitors.
           •   Sewage and Gray Water Management – proper disposal of sewage and
               gray (galley, bath, and shower) water while underway through
               collection and storage.
           •   Submarine Solid Waste Management - proper disposal of organic,
               inorganic, and plastic non-hazardous waste using food grinders.
           •   Pollution Prevention Afloat – reduction in use of hazardous materials
               and offloads of hazardous waste with commercial and non-
               developmental equipment and materials.

    SPCE Program Regulatory Criteria. Regulatory requirements for the SPCE
    program are contained in international treaties, congressional legislation, and
    executive orders. Multiple treaties and laws create substantive requirements



                                       1
which govern the major elements of the program excepting pollution prevention
afloat. Substantive requirements create, define, and regulate rights and duties of
parties.

        International Conventions. The International Convention for the
Prevention of Pollution from Ships (MARPOL Protocol), February 17, 1978, is
the international treaty designed to protect the marine environment from pollution
by ships. Annex I establishes the requirements for oil pollution at sea and
delimits “special areas” for discharges. Annex V establishes shipboard and
submarine solid waste discharge requirements. The MARPOL Protocol was
ratified by Congress and substantive requirements are incorporated in legislation.

The Montreal Protocol on Substances that deplete the Ozone Layer (Montreal
Protocol), September 16, 1987, is the international treaty designed to protect the
stratospheric ozone layer. The Montreal Protocol controls the production and use
of controlled substances and specifically establishes a phase out schedule for
CFCs, Halons, and other ozone depleting substances. The Montreal Protocol was
ratified by Congress and compliance with requirements are contained in
legislation.

       Congressional Legislation. Specific criteria clauses control the
minimization of air and water pollution through the proper handling and disposal
of waste aboard Navy vessels. The Navy is not exempt from following regulatory
guidelines for the type and volume of discharges within stated permissible areas,
or meeting compliance deadlines. A comprehensive listing of criteria for each
program element is contained in Appendix B.

         Executive Order. Executive Order No. 12,088, Fed. Reg. 47,707 (1978)
states that “all necessary actions should be taken for the prevention, control, and
abatement of environmental pollution.” In addition, the order states that “the head
of each Executive agency is responsible for compliance with applicable pollution
control standards . . . meaning the same substantive, procedural, and other
requirements that would apply to a private person.”

Equipment Installed to Date. As of July 2000, equipment installation under the
SPCE program will impact 281 active ships. An installation is defined for this
report as all like pieces of equipment placed in a single ship. To date, NAVSEA
has completed 660 of 984 programmed installations, with the remaining 324
scheduled through FY 2013. The Assistant Secretary of the Navy for Installations
and the Environment established installation priorities for the program in 1994,
based on the effective dates of legislation, the status of current ships’ equipment,
and maintenance schedules. The program is proceeding on schedule, and
NAVSEA has completed 67 percent of the required work using 74 percent of the
programmed funds. Equipment installation or conversion status varies by and
within the program element. For example, the installation of solid waste
equipment on surface ships is over 92 percent complete, while the submarine solid
waste equipment installation will not begin until FY 2001. Detailed program
information is contained in Appendix D.




                                   2
     Program Resources. Table 1 shows that the Navy has authorized NAVSEA
     $635.1 million for the SPCE program through FY 2000. NAVSEA has
     programmed an additional $259.2 million through FY 2005, for a total of $894.3
     million. The SPCE program is part of the Navy’s afloat environmental quality
     program. The afloat environmental quality program includes funding from
     Operations and Maintenance, Navy (Environmental Compliance), and Other
     Procurement, Navy, line items 093500 (SPCE) and 093505 (SPCE Installation).
     A comparison between yearly authorization and expenditures shows virtually no
     migration of funds in or out of the program.



                        Table 1. Program Funding and Execution
                                            (in millions)

       FY        Funds         NAVSEA                NAVSEA          NAVSEA
               Appropriated    Authorized            Obligated       Expended

      1995        $ 62.9         $ 64.5            $ 64.3   99.7%   $ 63.7   98.8%
      1996         104.5          102.1             101.9   99.8%     99.7   97.5%
      1997         130.2          123.8             123.7   99.9%    121.7   98.3%
      1998         172.9          113.3             112.5   99.3%    109.5   96.7%
      1999         156.4          117.0             107.9   92.2%     85.2   72.8%
      2000         116.5          114.4              36.0   31.5%      3.3   02.9%
      Total       $743.4         $635.1            $546.3           $483.1




Objectives
     The evaluation objective was to review the effectiveness and cost effectiveness of
     the Navy’s pollution control equipment program for upgrading equipment on
     Navy ships. Specifically, the evaluation assessed the status of progress toward
     program goals and objectives, and reviewed program costs versus products and
     services delivered. In addition, the evaluation reviewed the management control
     program under which SPCE activities were conducted. See Appendix A for a
     discussion of the evaluation scope and methodology, our review of the
     management control program, and a summary of prior audit coverage related to
     the evaluation objectives.




                                          3
           Navy SPCE Program Effectiveness
           Although the Navy SPCE program met stated objectives, program officials
           acknowledged the following weaknesses that continued to detract from
           program effectiveness.

                   •   Ship oily water discharge did not always comply with oil
                       content standards.

                   •   The Navy deployed solid waste management equipment
                       without additional shipboard manpower required to operate and
                       maintain it.

           These problems occurred because of inefficient installation, improper
           maintenance, bilge water discharge process changes, inefficiencies in the
           manpower assessment system, and ineffective staff coordination by the
           Navy. This situation resulted in the risk of environmental contamination,
           compliance fines, a negative impact on sailor morale, and increased
           equipment failure rates.


SPCE Program Effectiveness
    Overall Program Effectiveness. NAVSEA, through the SPCE program,
    provided the Navy with a standardized approach and centralized equipment
    procurement, which allowed individual naval vessels to stay in compliance with
    environmental regulations governing ships at port and underway. We identified
    no fines, violations, or port bans to date as a result of SPCE use or failure. The
    Navy SPCE program met stated objectives.

    Program Goal and Strategy. The SPCE Program goal was unencumbered
    operation worldwide in compliance with environmental laws and regulations. The
    program strategy was designed to meet essential Level 1 compliance requirements
    with the least operational impact at the lowest sustainable life-cycle cost. Level 1
    compliance requirements are derived from existing laws, regulations and
    Executive Orders that applied to Navy organizations, platforms and operations.


Compliance Requirements
    Regulatory Requirements. The Navy used three methods to meet regulatory
    requirements: new equipment and processes, phase out of existing equipment,
    and equipment buyout. New equipment and process designs were necessary for
    solid waste management and the air conditioning and refrigerant portion of the
    ODS conversion. Technological constraints necessitated a phase out for
    nonplastic submarine solid waste management and ship Halon 1301 fire fighting
    system conversion. The sewage and gray water and oil pollution abatement




                                       4
    programs were ongoing, needing only an equipment buyout. The following table
    summarizes Navy compliance status through September 2000.


                   Table 2. Navy Pollution Control Compliance Status

  SPCE Program Element        Compliance Date       Compliance Status             Comments


Solid Waste

   Plastics discharge          Dec. 31, 1998         Standard MET

   Other solid waste           Dec. 31, 2000         Standard MET       9 Ships programmed for FY 2001

                                                                          Ozone Depleting Substance
Ozone Depleting Substances
                                                                             production ban met.
   Chloroflourocarbons          Jan. 1, 1996         Standard MET
                                                                        Consumption extended until ship
   Halon 1301                   Jan. 1, 1994                            decommissioning by Exec. Order

Oil Pollution Abatement

   Oil water separation        Jun. 14, 1995        Substantially MET         30 Ships remaining

   Discharge oil content        Oct. 1, 2000         Standard MET

Sewage and Grey Water          Jan. 30, 1980         Standard MET

Submarine Solid Waste          Dec. 31, 2008          Programmed             Start during FY 2001

Pollution Prevention Afloat   Not Applicable                            Program not compliance driven


            New Equipment and Process Design. MARPOL Protocol Annex V
    establishes distinct requirements for plastics, inorganic wastes, and organic
    wastes. Office of the Chief of Naval Operations Instruction 5090.1b,
    “Environmental and Natural Resources Program Manual,” dated February 2,
    1998, effectively transfers the requirements into Navy regulations. The Navy also
    designed and installed various pieces of equipment in order to meet these
    requirements.

              •    To meet the plastics discharge prohibition while at sea, the Navy took
                   a four step approach: source reduction, segregation, volume reduction,
                   and retrograde. The plastic waste processor melts and compresses
                   plastic waste into disks at a 30:1 volume reduction. The disks are
                   vacuum packed for storage on board.
              •    Ships may discharge inorganic wastes with negative buoyancy outside
                   of 12 nautical miles from land. Sailors shred metal and glass, pack the
                   waste in burlap bags, and discharge them overboard.
              •    Ships may discharge organic wastes that pass through a 12 millimeter
                   screen. NAVSEA installed equipment that pulps paper, cardboard, and
                   food waste with seawater into a slurry with a particle size less than 12
                   millimeters.



                                                5
The Montreal Protocol called for the phase out of the production and consumption
of substances that deplete the stratospheric ozone layer. Navy ships are large
consumers of CFC-12 and CFC-114, used in air conditioning and refrigeration
systems. While exempted from the specific dates of the phase-out schedule, the
Navy has addressed the use of CFCs by adopting suitable refrigerant substitutes,
purchasing conversion kits for existing equipment, and establishing an ODS
reserve for use until final phase out. The replacement of CFC-12 with HFC 134a,
and CFC-114 AC with HFC-236fa, allowed existing ships to maintain operation.
NAVSEA continues to develop new non-ODS equipment for new ship
construction.

        Phase Out. Congress extended requirement deadlines for Submarine
Solid Waste Management until December 2008, and by Executive Order for
Halon 1301 consumption until ship decommissioning. The Navy analyzed
numerous options and concluded that full compliance with MARPOL Protocol
Annex V standards was not “reasonable and practicable” because of the unique
space, weight, and operational constraints on existing submarines. Submarines
will follow the plastic discharge prohibition, and NAVSEA has programmed the
installation of garbage grinders.

Consumption of Halon 1301 continues in ship fire fighting systems. The Navy
has not yet identified a suitable chemical replacement, and system conversion is
not feasible. Existing ships will continue using Halon 1301 in this critical system
until decommissioning. NAVSEA will equip new vessels with water mist and
HFC-227ea systems.

        Equipment Buyout. The standards and chosen solution for sewage and
gray water and oil pollution abatement equipment predate the SPCE program.
NAVSEA used SPCE funds to purchase remaining equipment for ships not
outfitted prior to 1995. The Clean Water Act, section 1251-1374, title 33, United
States Code, promulgates Federal standards to prevent the discharge of untreated
or inadequately treated sewage into navigable waters from vessels. Ships’
systems, including the use of U.S. Coast Guard-certified Marine Sanitation
Devices, meet discharge requirements. MARPOL Protocol Annex I established a
limit for the oil content of discharge water at 15 parts per million in 1978. The
Navy’s oil water separators and oil content monitors are generally capable of
meeting the standard. However, process changes generate highly contaminated
bilge water beyond the capabilities of the equipment.

Oily Water Discharge. Ship oily water discharge did not always meet
compliance standards for oil content. For example, Navy Board of Inspection
(INSURV) sample results collected during FYs 1998 and 1999 determined that 82
percent and 86 percent, respectively, of the 145 ships inspected had discharges
with an oil content greater than 15 parts per million. The oil pollution abatement
system consists of a commercial bulk oil water separator and a U.S. Coast Guard-
approved commercial oil content monitor; both pieces of equipment contributed
to the failure to achieve standards.

       Equipment Adequacy. The ships’ discharge failed to meet standards
because of inefficient installation, improper maintenance, and bilge water



                                   6
    discharge process changes. In a few cases, NAVSEA installed the oil water
    separator in a location that made it very difficult to remove the cover. This
    inhibited proper maintenance and cleaning. Also, ships’ personnel continued to
    use nonapproved emulsion agents during bilge tank cleaning which contaminated
    and fouled oil water separators.

    The overwhelming majority of failures were caused by bilge water discharge
    process changes. The parallel plate technology used in the oil water separators
    was designed in the 1970s to filter bilge water containing low concentrations of
    oil and contaminants. Since then, because of improved ship design and changed
    management practices, bilge water generally has concentrations of contaminants
    over 215 parts per million. While a properly functioning oil water separator
    removed 93 percent of contaminants, the high initial concentration meant the oil
    content of the discharge remained over the 15 parts per million standard. Also,
    INSURV reported that oil content monitors were generally unreliable. During
    their inspections, 36 of 43 ship oil pollution abatement installations failed
    certification, primarily because of deficiencies in the oil content monitors.

             Contamination and Fines. As a result of equipment failures, there is a
    risk of environmental contamination and compliance fines against the Navy. In
    response to the failure of more than 80 percent of the oil pollution abatement
    systems, commanding officers will not use the systems while in port or in U.S.
    waters. Failure to use the systems while in port has increased the strain on shore
    systems. While commanding officers are not personally liable for contamination,
    oil spills have led to environmental fines against Naval installations and degraded
    public relations.

            Navy Solution. The Navy is testing an ultra-filtration membrane system.
    This process uses filtration of discharge water through an ultra fine membrane
    following the existing oil water separators, and has demonstrated the ability to
    reliably treat discharge. NAVSEA plans to backfit existing systems, and plans to
    submit for funding in the FY 2003 budget. NAVSEA is developing a smaller,
    lower maintenance combined system for new ship construction.


Operational Impacts
    Operational Impact. NAVSEA effectively minimized the operational impact to
    the fleet of the SPCE program. Achieving compliance has caused several
    operational improvements, as well as minor negative impacts. NAVSEA
    minimized impact to fleet operations by performing equipment installation during
    scheduled maintenance periods. Specifically, NAVSEA chose equipment that
    caused the least physical disruption on the ship while attempting to keep operation
    and maintenance as simple as possible.

    The addition of the SPCE equipment caused minor operational improvements.
    The installation of the ODS conversion kits included control system
    enhancements which improved reliability and reduced maintenance requirements.
    Also, the replacement of CFC-114 with HFC-236fa in ship air conditioning plants
    allowed ships to operate in areas with higher air temperature while generating a



                                       7
lower acoustic signature. Finally, the addition of the pollution prevention afloat
equipment, specifically the cable degreaser and the mercury ion exchange
cartridge system, saved many man-hours.

The on board equipment suite also caused minor operational problems. Periodic
failures of the oil pollution abatement system have caused ship commanders to
routinely turn the system off while in port. This necessitates hook up to a shore
disposal facility that can handle oily water, or retention on board for the duration
of the port visit. Also, ships must be at least 12 nautical miles from shore to use
the inorganic waste shredder and 3 nautical miles to use the organic pulper,
forcing on board storage when the ship is required to remain anchored in inland
waters for extended periods. Solid waste management in general was a new
operation for ships’ personnel.

Shipboard Manpower. The Navy deployed solid waste management equipment
without additional shipboard manpower required to operate and maintain it. The
addition of the plastic waste processors, shredders, and garbage pulpers generated
a labor-intensive process. Proper use of on board equipment requires waste
segregation, hand delivery to the equipment, processing, and equipment clean up,
where previously trash and garbage was dumped overboard. This means that
there were no personnel offsets available from existing billets. NAVSEA began
solid waste management equipment installation on surface ships in 1996, and will
finish in 2001.

       Manpower Assessment Process. The manpower shortages occurred
because of ineffective staff coordination by the Navy and inefficiencies in the
manpower assessment system. NAVSEA was responsible for development,
procurement, and fielding of the equipment, while the Navy Manpower Analysis
Center evaluated labor requirements and developed ship manning documents.

The Navy reacted slowly to the need for additional manpower. NAVSEA
identified a potential requirement for additional personnel in 1993. The
manpower analysis for the plastic waste processor was not conducted until 1998,
and the findings were not approved until February 1999. While the Navy requires
revalidation of ship manning documents every 2 years, equipment installation is a
continuous process. The initial entry of an additional manpower requirement
potentially lags equipment installation by 2 years. Finally, the ship manning
document reflects wartime requirements. Reduced authorizations, personnel
transition, and other factors only allow resource managers to fill 90 percent of
requirements.

        Morale and Equipment Impacts. These problems have resulted in a
negative impact on sailor morale, increased equipment failure rates, and the risk
of environmental contamination and compliance fines. Because of the lack of
dedicated manpower for the equipment, operation and maintenance was a
temporary assignment for junior personnel. While underway, crewmembers
improperly segregated waste, forcing the operator to sort bags of trash and food
waste prior to using the pulper. Sailors considered equipment operation an
unpleasant burden, which negatively impacted morale.




                                    8
     Ship crews rotated solid waste equipment operations among sailors, some of
     whom were improperly trained. Ships’ personnel report a ratio of three cleaning
     and maintenance hours per hour of operation for the plastic waste processor.
     INSURV inspections verified that operators were not cleaning the equipment
     properly. This led to failure rates doubling for this piece of equipment. Also,
     overall inadequate manning caused ships’ personnel to use the equipment
     infrequently, adding to maintenance problems. Infrequent use resulted in the ship
     storing garbage, creating possible health and sanitation hazards.

             Navy Solution. The approved additions to the ship manning documents
     were a result of a Navy-directed assessment of the manpower requirement of all
     afloat environmental protection equipment/programs. Based on observations of
     fleet use of the equipment and planned maintenance schedule requirements, the
     Navy determined that numbers produced by the study were reasonable and
     correlated to the 1993 NAVSEA study. The Navy Surface Fleet, Atlantic, verified
     that the Navy Manpower Analysis Center intends to upload the manpower
     requirements for the Program Operating Memorandum for FY 2002. While this is
     no guarantee that the Navy resource managers will fill the billets, NAVSEA and
     the fleets continue to work the issue.


Lowest Sustainable Life-Cycle Cost
     Minimizing Equipment Life-Cycle Costs. NAVSEA defines life-cycle costs as
     research, development, testing, and evaluation (RDT&E), production, installation,
     maintenance and support, and disposal costs. NAVSEA uses SPCE program
     funding for procurement and installation costs, and is responsible for RDT&E
     using other than SPCE program funds. Different Navy commands manage
     maintenance and support and disposal costs.

     To minimize procurement costs, NAVSEA purchased commercial or non-
     developmental products where possible. The oil pollution abatement, sewage and
     gray water, and pollution prevention afloat equipment were all examples of
     commercial equipment purchased using competitively bid contracts. Because of
     the lack of a commercial alternative, NAVSEA designed the solid waste
     management equipment for both surface ships and submarines, while the
     production contract were competitively bid. In the case of the ODS systems,
     either the original equipment manufacturer was the only company with knowledge
     of the systems, or still owned the data rights. NAVSEA chose a sole source
     contract for the development of the conversion kits.

     NAVSEA minimized installation costs through proper design and planning. They
     ensured that lessons learned from initial equipment installations were
     disseminated to all facilities performing the work. In addition, during RTD&E,
     NAVSEA worked toward minimizing both procurement and installation costs.
     The criteria used during alternative analysis prior to equipment design and
     procurement included purchase, installation, operation, maintenance, and sailor
     labor costs.




                                       9
   Future Requirements. Anticipating and influencing future requirements was not
   a stated objective of the SPCE program. However, the Navy’s active response in
   the development of solid waste management standards and the Uniform National
   Discharge Standards contributed to program effectiveness and reduced program
   life-cycle costs.

   The Navy was actively involved in the development of solid waste management
   standards. MARPOL Protocol and its enabling U.S. legislation, the Act to
   Prevent Pollution from Ships (APPS), sections 1901-1911, title 33 United States
   Code, did not strictly apply to warships. In response to pending legislation, the
   Navy developed a Shipboard Solid and Plastics Waste Management Program Plan
   in 1987 that called for plastic discharge reduction within 5 years and full
   compliance with MARPOL Protocol Annex V within 11 years. Congress enacted
   the Marine Plastic Pollution Research and Control Act, section 1901, title 33
   United States Code, requiring full compliance within 5 years. In 1993, the Navy
   issued a report to Congress asking for a 6 year extension for surface ships.
   Congress agreed to the deadline extension and codified the standards with the
   National Defense Authorization Act for Fiscal Year 1994. This Act extended the
   compliance date for solid waste discharges to 1998, the original date stated in the
   1987 plan.

   The Navy took a proactive role in the development of the Uniform National
   Discharge Standards. This joint initiative between DoD and the Environmental
   Protection Agency (EPA) determined which uncontrolled discharges required
   standards. Developing the standards was a three step process: identify discharges
   requiring control, evaluate control devices and set standards, implement
   regulations. The Navy participated as a full partner in phases one and two, to
   assure their concerns were addressed.


Summary
   The SPCE program for upgrading equipment on Navy ships was effectively
   meeting the stated objectives of compliance with regulatory requirements at the
   lowest sustainable life-cycle cost with the least operational impact. The Navy
   established and continued to follow installation priorities, and with 660 of 984
   programmed equipment installations complete, the program met scheduled
   production rates within the anticipated budget. NAVSEA was aware of changes
   to ship operations that caused the oil pollution abatement equipment to fail, and
   were testing solutions to the problem. The addition of the solid waste
   management equipment created a manpower requirement, which the personnel
   managers were attempting to resolve. Overall, the program contributed to the
   Navy’s goal of unencumbered operations worldwide in compliance with
   environmental laws and regulations. Because problems in the program are being
   addressed and no material management control weaknesses were identified, we
   are not making recommendations in this report.




                                     10
Appendix A. Evaluation Process

Scope
    We reviewed the effectiveness and cost effectiveness of the Navy’s shipboard
    pollution control equipment program for upgrading equipment on Navy ships.
    Specifically, we reviewed the status of progress toward program goals and
    objectives, program costs versus products and services delivered, and the
    management control program as it applies to the other stated evaluation
    objectives.

    DoD Functional Area Reform Goals. Most DoD functional areas have also
    established performance improvement reform objectives and goals. This report
    pertains to achievement of the following functional area objective and goal:

            Environmental Functional Area. Objective: Achieve compliance with
            applicable Executive orders and Federal, State, and inter-state, regional,
            and local statutory and regulatory environmental requirements. Goal:
            Number of new, open, unresolved, and closed enforcement actions
            applicable environmental statues. (ENV-2.1)
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.


Methodology
    To accomplish the evaluation, we reviewed U.S. law, Executive Orders, and
    policies and guidance from DoD and the Navy. We also reviewed the adequacy
    and effectiveness of existing Navy policies, guidance, and plans used to
    implement the SPCE Program at Naval installations. We:

           •   conducted site visits to selected Naval ships and facilities;

           •   reviewed FY 1995 through FY 2005 budget and execution data, and
               interviewed key environmental personnel to determine how Naval
               installations spent SPCE Program funds;

           •   interviewed ship personnel to obtain their views on the effectiveness of
               the program;




                                       11
           •   interviewed management control officials to identify controls relating
               to the SPCE Program and reviewed management’s self-evaluation
               processes; and

           •   interviewed environmental management officials from the cruise line
               industry to determine their methods for pollution control.

    Evaluation Type, Dates, and Standards. We performed this economy and
    efficiency evaluation from January 2000 through July 2000 in accordance with
    standards implemented by the Inspector General, DoD. Accordingly, we included
    tests of management controls considered necessary. We did not rely on computer-
    processed data or statistical sampling procedures.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DoD and the civilian cruise line industry. Further details are
    available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over the implementation of the SPCE program.
    Specifically, we reviewed the adequacy of management controls over equipment
    procurement, installation, and operation. Because we did not identify a material
    weakness, we did not assess management’s self-evaluation.

    Adequacy of Management Controls. Management controls for implementing
    the SPCE program and managing equipment were adequate as they applied to the
    evaluation objectives.


Prior Coverage
    The General Accounting Office has issued Report No. NSIAD-95-38, “Pollution
    Prevention: The Navy Needs Better Plans for Reducing Ship Waste Discharges,”
    November 11, 1994, discussing the SPCE program.




                                      12
Appendix B. SPCE Program Criteria
    Navy vessels must be in full compliance with the following criteria, so far as is
    reasonable and practicable without impairing the operations or operational
    capabilities of such ships.


Solid Waste
    Section 1902 of APPS requires U.S. vessels, including warships, to comply with
    MARPOL Protocol Annex V shipboard and submarine solid waste discharge
    requirements by established deadlines.

    Effective Date. Surface ships must be in full compliance with APPS provisions
    for solid waste by December 31, 1998 and by December 31, 2000 in special areas
    (a sea area where, for recognized technical reasons, in relation to its
    oceanographical and ecological condition and to the particular character of its
    traffic, the adoption of special mandatory methods for prevention of sea pollution
    by garbage is required).

    Substantive Law. Ships are prohibited from discharging pollutants within
    3 nautical miles of shore. Navy ships with plastic waste processors are prohibited
    from discharging any plastics. Those ships without plastic waste processors must
    follow the 3-day/20-day rule. Surface ships shall not discharge:

           • food contaminated plastics the last 3 days at sea, and
           • nonfood-contaminated plastics the last 20 days at sea.
    Ships outside of special areas may discharge nonplastic wastes able to pass
    through a 25 millimeter screen between 3 and 12 nautical miles, nonfloating waste
    beyond 12 nautical miles, and floating waste beyond 25 nautical miles from shore.
    Ships within special areas can discharge waste able to pass through a 12
    millimeter screen outside 3 nautical miles and metal and glass that have been
    shredded and bagged to negative buoyancy outside 12 nautical miles.


Ozone Depleting Substances
    The Clean Air Act, sections 7401-7671, title 42, United States Code is a
    comprehensive Federal law that regulates air emissions from area, stationary, and
    mobile sources. This law authorizes the EPA to establish National Ambient Air
    Quality Standards to protect public health and the environment. Section 7671m
    applies subchapter VI, “Stratospheric Ozone Protection,” as a supplement to the
    terms and conditions of the Montreal Protocol.

    Effective Date. Navy vessels must be in full compliance Clean Air Act
    provisions for ODS. The production phase-out schedule of ODS is: halons by



                                       13
    December 31, 1993; CFCs, methylchloroform, and carbon tetrachloride by
    December 31, 1995; and Class II substances by 2030.

    Substantive Law. The Navy has not met the above phase-out schedule for CFCs
    and halons because the established dates were not technically feasible. Exec.
    Order No. 12,843, 58 Fed. Reg. 77 (1993), implements an extension for the phase-
    out of CFCs and halons through Section 7418 of the Clean Air Act. DoD
    Directive 6050.9, “Chlorofluorocarbons and Halons,” February 13, 1989,
    establishes the DoD ODS reserve for mission critical applications.


Oil Pollution Abatement
    Section 1902d of APPS requires U.S. vessels, including warships, to comply with
    MARPOL Protocol Annex I oil pollution requirements at sea.

    Effective Date. Navy vessels must be in full compliance with the 1990
    amendments to APPS provisions for oil pollution abatement.

    Substantive Law. Oil content of discharges from all ships can not exceed
    15 parts per million. In special areas, discharge of oil or oily mixture from oil
    tankers and other ships in excess of 400 gross tons is prohibited. However,
    discharge of processed bilge water from machinery spaces is allowed if the
    following conditions are met:

           •    the ship is proceeding en route, and oil content of the overboard
                discharge without dilution does not exceed 15 parts per million;
           • ship has in operation oil filtering equipment that will alarm if an output
                of greater than 15 parts per million is exceeded;
           • and the filtering system is equipped with a stopping device that will
                ensure that the discharge is automatically stopped if the effluent oil
                content exceeds 15 parts per million.
    Uniform national discharge standards requires the EPA and DoD to identify and
    evaluate currently non-regulated discharges from Armed Forces vessels. Uniform
    national discharge standards is broken down in the following three phases, with
    phase 2 currently underway:

           •   (Phase 1) DoD and EPA determined 25 of the 39 discharges identified
               require a Marine Pollution Control Devices;
           •   (Phase 2) Evaluation of candidate Marine Pollution Control Devices
               and establishment of performance standards; and,
           •   (Phase 3) Develop implementing regulations.




                                       14
Sewage and Gray Water
     Section 1322 of the Clean Water Act directs the EPA, Coast Guard, and States to
     work together to protect human health and the aquatic environment from disease-
     causing microorganisms which may be present in sewage from vessels. This
     section also provides states with a tool to protect their citizens and aquatic habitats
     through standards for Marine Sanitation Devices and no-discharge zone
     designations for vessels.

     Effective Date. Navy vessels must be in full compliance with 40 C.F.R. Section
     140 (1976), provisions for Sewage and Gray Water by January 30, 1977 for new
     vessels and January 30, 1980 for existing vessels. DoD Directive 6050.4, “Marine
     Sanitation Devices for Vessels Owned or Operated by the DoD,” March 16, 1982,
     implements these provisions.

     Substantive Law. Vessels constructed before January 31, 1980, and equipped
     with a Type I Marine Sanitation Device shall not produce a fecal coliform
     bacterial count greater than 1,000 per 100 milliliters or visible floating solids.
     Vessels constructed after January 31, 1980 or equipped with a Type II Marine
     Sanitation Device shall not produce a fecal coliform bacterial count greater than
     200 per 100 milliliters or suspended solids greater than 150 mg/l.


Submarine Solid Waste
     The criteria for submarine solid waste is the same as the criteria for solid waste
     listed above with minor exceptions.

     Effective Date. Submarines must be in full compliance with APPS provisions by
     December 31, 2008.

     Substantive Law. Submarines are prohibited from discharging pollutants within
     3 nautical miles of shore. Outside of 3 nautical miles, submarines with plastic
     waste processors are prohibited from discharging any plastics or buoyant garbage.
     Within special areas, submarines may discharge waste able to pass through a 12
     millimeter screen outside 3 nautical miles, metal and glass that have been
     shredded and bagged to negative buoyancy, and nonplastic garbage that has been
     compacted and weighted to ensure negative buoyancy outside
     12 nautical miles from land.


Pollution Prevention Afloat
     Exec. Order No. 12,856, 58 Fed. Reg. 41,981 (1993) directs the Federal
     Government to demonstrate pollution prevention leadership by improving facility
     management, incorporating environmental principles in acquisition practices,
     establishing pollution prevention goals and plans, and developing innovative
     technologies. DoD Instruction 4715.4, “Pollution Prevention,”
     June 18, 1996 implements policy, assigns responsibility, and prescribes


                                         15
procedures for implementation of pollution prevention programs throughout the
DoD under DoD Directive 4715.1, “Environmental Security,” February 24, 1996.

Effective Date. There is no compliance date for this area of the program.

Substantive Law. Pollution prevention plans should be developed which support
cost-effective environmental compliance, achievement of DoD measure of merit
goals, reduce generation of pollutants, and or reduce the overall life-cycle cost of
the activities environmental program.




                                   16
Appendix C. Evaluation of Cost Effectiveness
    We determined that a proper analysis of program cost effectiveness was not
    feasible. Analysis of cost effectiveness requires alternative actions or systems for
    comparison using cost and effectiveness as variables. The Navy has conducted
    alternatives analysis for individual elements of the SPCE. However, while other
    ship owning organizations have equivalent environmental protection goals, their
    systems are distinctly different from the Navy. These dissimilarities prohibit a
    comparison of the program as a whole.

    Cost Effectiveness. A determination of cost effectiveness requires comparison.
    In his text, Quade1 provides the following definition:
                  Cost effectiveness is a form of systems analysis in which the alternative
                  actions or systems under consideration are compared in terms of two of
                  the consequences, dollar or resource costs and the effectiveness,
                  associated with each alternative. The effectiveness of an alternative is
                  measured by the extent to which that alternative, if implemented, will
                  attain the desired objective.

    Using this definition, alternative actions or alternative systems for comparison are
    necessary in order to conduct a cost effectiveness analysis for the SPCE program.
    The Navy has considered alternative actions throughout their development and
    execution of the program.

    Alternatives Analysis. Prior to purchasing equipment for the program, the Navy
    conducted research and analysis. These efforts were funded under PE63721N,
    “Environmental Protection,” project S0401, “Shipboard Waste Management”, not
    from SPCE authorizations.

               Ship and Submarine Solid Waste. Prior to deciding on the current suite
        of equipment, the Navy conducted a comprehensive study. The results are
        summarized for surface ships in the November 1996 report to Congress, and for
        submarines in the December 1997 report. Both analyses identified and evaluated
        multiple options against well defined criteria including cost and effectiveness.

                Ozone Depleting Substances. Regulations require the Navy to eliminate
        three ozone depleting substances: CFC-12 used in reciprocating-compressor air-
        conditioning and refrigeration equipment, CFC-114 used in centrifugal-
        compressor air-conditioning plants, and Halon used in fire-fighting systems.
        They determined that replacing all existing systems was cost prohibitive.
        Analysis of the engineering effectiveness and cost of alternatives was different in
        all three cases.




    1
     “Analysis for Public Decisions,” by E.S Quade, Elsevier Press, New York, 1979, p. 25



                                              17
       •  Major chemical manufacturers provided HFC-134a as a replacement
          for CFC-12. NAVSEA tested and began conversions of existing
          systems.
       • Due to the limited commercial market for CFC-114, NAVSEA
          conducted an engineering analysis and chose HFC-236fa to replace
          CFC-114. They then tested and began conversions of existing
          systems.
       • Due to the lack of viable alternatives, the Navy chose to continue to
          use Halon in existing ships until decommissioning.
        For new ship construction, the Navy will also use HFC-134a for all air
conditioning and refrigeration applications, while water mist and HFC-227ea
systems will replace Halon.

        Oil Pollution Abatement. The Navy considered existing equipment
alternatives in the initial selection of oil water separators (OWS) and an oil
content monitors (OCM). The parallel plate gravity coalescence technology
currently in use by the Navy in OWS was selected as a result of research and
development in the late 1970's and is beyond the scope of this project. The OCM
technology was selected following the evaluation of several existing, USCG
certified equipment types. Due to self-identified effectiveness problems, the
Navy is currently studying new technology to achieve current effluent discharge
requirements.

        Sewage and Gray Water. The Navy designed their collection systems in
order to meet requirements at the least possible cost. Due to the variety of ages,
sizes, and missions of surface ships, the Navy has built several alternatives. All
existing alternatives meet current regulations. Alternatives attempted include
gravity flow combined systems, separate systems, and separate vacuum-
incinerator sewage systems. While the Navy updates technology on newer ships,
current regulations do not demand options other than overboard disposal.

        Pollution Prevention Afloat. Based on analysis of a ship’s process
pollution prevention assessment, NAVSEA identified 16 opportunities for testing
on the USS John Hancock. The opportunities were primarily commercial off-the-
shelf equipment and non-developmental items. Using cost, return on investment,
effectiveness, and other qualitative criteria, and following an underway testing
period, NAVSEA chose nine opportunities for transition to all SPRUANCE-
Class ships.

Systems Comparison. While both the Cruise lines and the Navy operate surface
ships, their mission, methodology, and operational constraints are significantly
different. Many of the pollution control processes they use are similar, but there
are too many differences to allow for a system wide cost effectiveness
comparison.

The Cruise lines operate one type of vessel for the purpose of passenger
recreation, carrying from 900 to 2600 passengers and crew. The ships are
normally underway for a minimum of 3 to a maximum of 14 days between port


                                  18
   calls, and are not designed for weather extremes. Virtually all ship maintenance is
   done in port by shore based personnel. The vessels tend to be only a few years
   old.

   The Navy operates many different types of ships, carrying crew complements
   from several hundred to more than 5000. They require ships to sustain operations
   at sea for long periods, operate in harsh physical environments, and sustain
   performance in combat environments. Because of the combat mission, weight
   and space are at a premium during ship design. Navy personnel perform most of
   the repairs onboard, so equipment must require minimum maintenance.

   The following table summarizes the differing equipment chosen by both
   organizations to meet current regulatory requirements.


                      Pollution Control Methodology and Equipment

                                                Navy                              Cruise Lines

  SPCE Program Element               Process            Equipment          Process           Equipment

Solid Waste

   Plastics                    Volume reduction,          PWP           Shore disposal            None
                                Shore disposal

                                 Grind to slurry,         Pulper     Burn, Shore disposal    Incinerator
   Organic Waste
                                    Dispose                                 of ash

   Inorganic Waste               Shred, Dispose          Shredder       Shore disposal           Shredder

Ozone Depleting Substances

   Existing Systems              Conversion Kits        HFC-134a     Limited conversion      HFC-134a

                                                        HFC-236fa        Most ships         HFC-236fa
                                                                       constructed with
                                                          Halon                                   Halon
                                                                          HFC-134a

   New Construction                  Design             HFC-134a           Design            HFC-134a

                                                        Water Mist                          Water Mist

Oil Pollution Abatement       Parallel plate, Gravity   OWS/OCM         Parallel plate,     OWS/OCM
                                    separation                        Gravity separation

Sewage and Grey Water                 None              Combined     Biological Treatment        Separate
                                                         Tanks                                    Tanks

Submarine Solid Waste              Grind to slurry       Grinder            N/A                    N/A

Pollution Prevention Afloat         Reduction            Various            N/A                    N/A


         Solid Waste. The solid waste processes differ greatly. The Navy
   conducts volume reduction on plastic waste because of the length of operations at


                                               19
sea and lack of storage space. The cruise lines do not have this requirement. The
cruise lines incinerate organic waste. The Navy, due to installation costs and
space and weight constraints, selected the pulp and dispose alternative. Both
organizations shred inorganic waste, and dispose of it in accordance with
regulations.

        Ozone Depleting Substances. Both organizations chose a similar
approach to ODS elimination. They converted existing CFC-12 systems to HFC-
134a, and use or plan to use HFC134a for all new construction. The Navy also
has to convert CFC-114 systems to HFC-236fa. Both also chose to continue using
existing Halon fire fighting systems, and to use combination water and HFC-
227ea based systems for all new construction.

        Oil Pollution Abatement. Virtually all ships use a parallel plate
OWS/OCM combination. Both organizations are planning system upgrades. One
cruise line has already adopted centrifuge technology, while the Navy is testing
membrane filtration.

       Sewage and Gray Water: All cruise line vessels separate sewage and
gray water. They hold the water while the ships are in port, and dispose when
underway. Sewage is collected using a vacuum system, and treated using
biological processes prior to disposal. The Navy uses a gravity flow, combined
sewage and gray water, collection holding tank system on the majority of their
ships. Ships use shore side disposal while in port, and discharge overboard while
underway. Differences are primarily due to the greater age of the Navy vessels.

        Submarine Solid Waste and Pollution Prevention Afloat: Neither of
these program elements apply to the cruise lines. Pollution prevention afloat
opportunities are focused on maintenance practices, and the cruise lines conduct
shore based maintenance only. No comparison is possible.

While some of the equipment and processes are the same, the overall systems for
pollution control used by the cruise lines and the Navy are dissimilar. Both
accomplish oil pollution abatement using an OWS/OCM combination, use HFC-
134a as the replacement for ozone depleting chemicals, and retrograde all
hazardous waste. However, unique mission requirements led the Navy to entirely
different solid waste equipment and processes. The extended service life of their
ships caused the Navy to convert all ozone depleting chemical systems. The
relatively newer ships of the cruise lines have treatment systems for sewage, while
Navy ships combine and discharge.

While the Navy conducted effective alternatives analysis for program elements,
we could not perform a complete cost effectiveness analysis. The Navy and the
cruise lines’ pollution control programs have significant system process and
equipment differences. These differences, combined with the variety in age, size,
and primary mission of Navy ships versus the cruise lines, prohibit a proper cost
effectiveness analysis between the systems.




                                  20
Appendix D. NAVSEA Installation Data
    Using funding from the SPCE program, the Navy has programmed the purchase
    of quantities of 11 different pieces of equipment, 3 conversion kits, and
    2 equipment suites for installation in 281 active vessels. An installation is defined
    for this report as all like pieces of equipment placed in a single ship. Data from
    the installation of 9 pieces of equipment and the 3 conversions, accounting for
    over 92 percent of program expenditures, is summarized below.


Equipment Installation versus Dollars Expended
    Table 1 summarizes installations completed through the third quarter of
    FY 2000 and those planned versus expenditures. None of the equipment or
    conversions are required on all 281 ships, and no single ship requires all
    installations. The timing of the installations reflect official Navy priorities
    established in 1994, effective dates for compliance, and ship maintenance
    availability. The timing of expenditures track installations as expected. The data
    shows that NAVSEA has completed 660 out of 984 programmed installations (67
    percent) for the items shown. They have completed 67 percent of the required
    installations using 74 percent ($605 Million) of programmed funds.


                   Table 1. Programmed Installations and Expenditures

                                           Installations                       Expenditures

          Equipment Type          Total    4th Q FY        Program    Total    4th Q FY      Program
                                 to date    2000+            total   to date    2000+          total

     Plastic waste processor      186            1           187     $230.8       $     0      $230.8
     Pulpers and shredders        143           26           169      226.0            1.7      227.7
     Oil water separators          28            2           30        52.3            5.1       57.4
     Oil content monitors          55            8           63          8.4           0.3        8.7
     A/C Conversions               70           17           87          9.3           4.9       14.2
     Refrigeration conversions    159           98           257       19.6           20.3       39.9
     CFC114 A/C Conversions        5            97           102       31.6        178.0        209.6
     Food pulper/grinder           0            74           74            0           4.6        4.6
     Sewage pumps                  14            1           15        27.1            3.0       30.1
      Total                       660           324          984     $605.0      $218.0        $823.0




                                           21
SPCE Program Ship Class versus Execution
    The data in Tables 2 and 3 summarize the Navy plan for installing the equipment
    necessary to meet compliance requirements. Table 2 demonstrates that no
    equipment type is required on all 281 ships. Most active ships already had the
    required oil water separators, oil content monitors, and sewage pumps by the start
    of the SPCE in 1995, therefore the total requirements are very low.


                        Table 2. Ships Installation Complete by Class

          Equipment type         Auxilliary     Surface    Amphib     Mine     Subs   Total
                                               combatant   warfare   warfare

     Plastic waste processor        16           126         39        1        0     182
     Pulpers and shredders          15            92         36        0        0     143
     Oil water separators            3            5          19        1        0      28
     Oil content monitors            9            21         20        5        0      55
     A/C Conversions                13            34         23        0        0      70
     Refrigeration conversions      17           102         21        11       8     159
     CFC114 A/C Conversions          0            5          0         0        0      5
     Food pulper/grinder             0            0          0         0        0      0
     Sewage pumps                    0            10         4         0        0      14




                       Table 3. Ships Installation Remaining by Class
          Equipment type         Auxilliary     Surface    Amphib     Mine     Subs   Total
                                               combatant   warfare   warfare

     Plastic waste processor         0            1          0         0               1
     Pulpers and shredders           1            21         3         1        0      26
     Oil water separators            0            1          1         0        0      2
     Oil content monitors            0            3          2         3        0      8
     A/C Conversions                 2            0          0         15       0      17
     Refrigeration conversions       4            24         12        4       54      98
     CFC114 A/C Conversions          7            66         23        1        0      97
     Food pulper/grinder             0            0          0         0       74      74
     Sewage pumps                    0            0          1         0        0      1



                                          22
The remaining installations, shown in table 3 above, illustrate the compliance
priorities of the program. The required compliance date for the food
pulper/grinder on submarines is 2008. The Navy is using the CFC and Halon
phase-out extension, and the DoD ozone depleting substance strategic reserve to
extend the installation of conversion kits. These two programs account for 248 of
the 265, or 94 percent of the remaining installations.




                                  23
Appendix E. INSURV Program and Equipment
            Inspection Data
    INSURV was originally established in 1868 to ensure that ships of the U.S. Navy
    were properly equipped for prompt, reliable, sustained mission readiness at sea.
    On August 5, 1882, Congress enacted legislation under section 7304, title 10,
    United States Code, (10 U.S.C. 7304), that established INSURV under statutory
    authority. It has been continuously operating under this authority since that date.

    INSURV is required to evaluate the condition of Navy ships at least once every 3
    years for the purpose of determining and reporting upon a ship’s fitness for further
    service and those material conditions which limit its capability to carry out
    assigned missions. Additionally, INSURV is authorized to inspect two program
    areas: environmental compliance and Navy occupational safety and health.
    Inspection teams consist of INSURV assigned personnel, technical experts from
    Fleet Technical Support Centers, and independent contractors.


Oil Pollution Abatement
    Table 1 contains data collected by INSURV demonstrating a continued high rate
    of failures in oil pollution abatement equipment. According to their analysis,
    failures are caused by procedural, human, and material factors. Procedural and
    human factors identified include incomplete or outdated logistics support, failure
    to complete planned maintenance according to schedule, and a lack of command
    emphasis on completing and maintaining certification requirements. The material
    factor contributing to equipment failure are deficiencies with certain models of oil
    content monitors.


              Table 1. Oil Pollution Abatement Equipment Failure Rates

          Calendar year           1995         1996         1997       1998        1999

     Equipment type             (percent)     (percent)   (percent)   (percent)   (percent)

        Oil water separator        31            41          42          41          47

        Oil content monitor        32            50          56          33          51



    As part of the ongoing effort to support the INSURV boards, in FY 1998 and FY
    1999 the Naval Surface Warfare Center, Carderock Division, Ship Systems
    Engineering Station collected and analyzed samples retrieved from oil water
    separators to determine effluent oil concentration and general system
    performance. Tables 2 and 3 summarize oil concentration analysis results.


                                         24
            Table 2. Average Discharge Oil Concentrations, FY 1998

     Ship             Type         ppm*       Ship             Type          ppm*

  AGOR-15           Auxiliary      261       LHD-5        Amphib warfare      209

   AOE-10           Auxiliary       32       LHD-6        Amphib warfare      19

   CVN-75        Nuclear carrier    15       LPD-14      Amphib transport      3

   DDG-70           Destroyer       99       MHC-57         Minehunter        104

   DDG-73           Destroyer      108       MHC-61         Minehunter        36

   DDG-74           Destroyer       17

      *ppm – parts per million




            Table 3. Average Discharge Oil Concentrations, FY 1999

     Ship             Type         ppm*       Ship             Type          ppm*

   AOE-4            Auxiliary       26       DDG-78          Destroyer       301/24

   AOE-6            Auxiliary       42       FFG-50           Frigate         13

   AOE-10           Auxiliary       77       LHD-6        Amphib warfare      20

   CVN-69        Nuclear carrier    38       LSD-41        Dock landing       41

   DD-991           Destroyer       11       LSD-46        Dock landing       309

   DD-997           Destroyer       54       LSD-47        Dock landing       78

   DDG-55           Destroyer       88      LST-1184       Tank landing       55

   DDG-68           Destroyer       21       MHC-61         Minehunter         9

   DDG-75           Destroyer       47      TAKR-301      Roll on/Roll off    84

   DDG-76           Destroyer      41/26    TAKR-312      Roll on/Roll off    39

   DDG-77           Destroyer       76

      *ppm – parts per million



The results summarized above measure apparent oil concentrations only. The test
filters out the impact of detergents. The data show that in FY 1998, 82 percent of
the ships inspected did not meet discharge standards of 15 parts per million. The


                                   25
value for FY 1999 was 86 percent. Overall, 27 out of 32 ship’s discharge had a
oil concentration greater than 15 parts per million, with 6 greater than 100 parts
per million.

Fouling of the parallel plates of the oil water separators, discovered during
INSURV “open and inspect” inspections, was in some cases the cause of reduced
performance. The level of fouling and contaminant build-up verified that ship’s
personnel were not cleaning the equipment as required. The cause of the oil
build-up was the use of incompatible detergents and aqueous film forming foam
during bilge tank cleaning, which prevent the separation of oil from the waste
water.




                                   26
Appendix F. Report Distribution

Office of the Secretary of Defense
  Under Secretary of Defense for Acquisition, Technology, and Logistics
    Deputy Under Secretary of Defense (Environmental Security)
  Under Secretary of Defense (Comptroller/Chief Financial Officer)
    Deputy Chief Financial Officer
    Deputy Comptroller (Program/Budget)

Department of the Army
  Auditor General, Department of the Army

Department of the Navy
  Assistant Secretary of the Navy (Installations and Environment)
  Deputy Chief of Naval Operations (Logistics)
      Environmental Protection, Safety and Occupational Health Division
  Naval Inspector General
  Auditor General, Department of the Navy
  Commander, Naval Sea Systems Command

Department of the Air Force
  Assistant Secretary of the Air Force (Financial Management and Comptroller)
  Auditor General, Department of the Air Force

Other Defense Organizations
  Director, Defense Contract Audit Agency
  Director, Defense Logistics Agency
  Director, National Security Agency
      Inspector General, National Security Agency
  Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations and Individuals
  Office of Management and Budget



                                         27
Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
 Senate Committee on Appropriations
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Committee on Governmental Affairs
 House Committee on Appropriations
 House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
 House Committee on Government Reform
 House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform
 House Subcommittee on National Security, Veterans Affairs, and International
     Relations, Committee on Government Reform




                                      28
Evaluation Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report.

Paul J. Granetto
William C. Gallagher
LTC George P. Marquardt, USA
Joseph M. Kaseler
Nephateria N. McBride
Sylvia Powell




                                          29
